         U.S. ENVIRONMENTAL PROTECTION AGENCY
         OFFICE OF INSPECTOR GENERAL



                                        Catalyst for Improving the Environment


Public Liaison Report



       Follow-up Review on Progress at
       Escambia Treating Company
       Superfund Site, Pensacola, Florida

       Report No. 08-P-0200

       July 14, 2008
Report Contributors:   Paul McKechnie
                       Dan Cox
                       Tom Reilly
                       John Coll




Abbreviations

CATE     Citizens Against Toxic Exposure
CD       Compact Disk
EPA      U.S. Environmental Protection Agency
OIG      Office of Inspector General




Cover photo:	   The contaminated soil mound contained within a high density polyethylene
                cap at the Escambia Treating Company Superfund site. (Photo taken by
                OIG staff in October 2007)
                       U.S. Environmental Protection Agency 	                                                08-P-0200
                                                                                                          July 14, 2008
                       Office of Inspector General


                       At a Glance

                                                                            Catalyst for Improving the Environment


Why We Did This Review             Follow-up Review on Progress at Escambia Treating
                                   Company Superfund Site, Pensacola, Florida
We conducted this review to
determine whether U.S.
Environmental Protection           What We Found
Agency (EPA) Region 4
implemented the                    EPA Region 4 implemented all but one of our prior report recommendations. For
recommendations in our             example:
September 2004 report on the
Escambia Treating Company              •	 EPA and the U.S. Army Corps of Engineers monitored the housing
Superfund site, Pensacola,                inspection process and implemented steps to reduce the likelihood of
Florida. We also examined the             maintenance issues surfacing when relocating residents.
current status of site clean-up        •	 Region 4 updated the Community Involvement Plan and provided to the
and whether EPA was                       site information repository copies of the plan as well as the community’s
effectively communicating site
                                          technical advisor’s comments.
clean-up plans and actions with
residents, local businesses, and       •	 Region 4 conducted public availability sessions with the community.
city and county governments.           •	 Region 4 provided the administrative record compact disks (CDs) to the
                                          site repository.
Background
                                   Although Region 4 indicated it had provided electronic files containing the site
The Escambia site is an            administrative record to Citizens Against Toxic Exposure (CATE), an
abandoned wood preserving          environmental group, CATE’s current president said the organization did not
facility where various health      receive any CDs from the Region. Also, the Region was unable to locate any
risks were identified and from     evidence (e.g., copy of transmittal letter) that it had submitted the CDs to CATE.
which about 358 households
were permanently relocated.        The remedial action for contaminated soils at the site began in October 2007 and
In September 2004, we              is expected to be completed around April 2009. EPA completed the draft
reported on the status of          feasibility study for addressing contaminated groundwater at the site in December
EPA’s clean-up planning for        2007. EPA plans to issue the Record of Decision in July or August 2008.
the site, relocation of home
owners, and community              Overall, residents, local governments, and businesses indicated Region 4 openly
relations activities. We had       communicated and provided timely information regarding the site.
made several recommendations
in that prior report.              What We Recommend

                                   We recommend that EPA Region 4 provide copies of the updated administrative
For further information,
contact our Office of
                                   record CDs to CATE. Further, although not warranting formal recommendations,
Congressional and Public           we found several additional steps EPA could take. Steps included updating the
Liaison at (202) 566-2391.         administrative record index at the site repository, making CDs more readily
                                   available, and providing local officials with fact sheets on a regular basis.
To view the full report,
click on the following link:
www.epa.gov/oig/reports/2008/      Region 4 concurred with our recommendation and suggestions. The Region
20080714-08-P-0200.pdf             indicated it provided the CDs to CATE on May 8, 2008.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460



                                                                                            OFFICE OF
                                                                                       INSPECTOR GENERAL


                                           July 14, 2008

MEMORANDUM

SUBJECT: 	 Follow-up Review on Progress at Escambia Treating Company
           Superfund Site, Pensacola, Florida
           Report No. 08-P-0200


FROM:	         Eileen McMahon
               Assistant Inspector General
               Office of Congressional and Public Liaison

TO:	           J. I. Palmer, Jr.
               Regional Administrator
               Region 4


This is our final report on the subject review conducted by the Office of Inspector General (OIG)
of the U.S. Environmental Protection Agency (EPA). This report contains findings that describe
the problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this report will be made by
EPA managers in accordance with established resolution procedures.

The findings in this report are not binding in any enforcement proceeding brought by EPA or the
Department of Justice under the Comprehensive Environmental Response, Compensation, and
Liability Act to recover costs incurred not inconsistent with the National Contingency Plan.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $162,970.

Action Required

Based on Region 4’s concurrence with the findings, acceptance of the recommendation
and suggestions, and completion of the recommended actions, the OIG is closing out this
report upon issuance. We have no objections to the further release of this report to the
public. This report will be available at http://www.epa.gov/oig.

If you or your staff has any questions, please contact me at 202-566-2546, or Eric Lewis at
202-566-2664 or lewis.eric@epa.gov.
Follow-up Review on Progress at Escambia Treating Company                                                                               08-P-0200
Superfund Site, Pensacola, Florida




                                         Table of Contents 

Purpose ................................................................................................................................          1     


Background ..........................................................................................................................             1     


Scope and Methodology .....................................................................................................                       1     


Results of Review ................................................................................................................                2     


           Did EPA Region 4 implement the prior OIG report recommendations? .....................                                                 2


           What is the current status of the Escambia Treating Company
           Superfund site clean-up? ...........................................................................................                   4


           Is EPA communicating effectively with community residents,
           local businesses, and city and county governments regarding
           current EPA clean-up plans and actions? ..................................................................                             4


Recommendation ................................................................................................................                   4


Agency Response and OIG Comments ............................................................................                                     4 


Suggestions ........................................................................................................................              5 


Status of Recommendations and Potential Monetary Benefits ......................................                                                  8


Agency Response to Draft Report ...................................................................................                               9 


Distribution           .......................................................................................................................   13 

                                                                                       08-P-0200 



Purpose
The purpose for conducting this follow-up review was to answer the following questions:

   •	 Did U.S. Environmental Protection Agency (EPA) Region 4 implement the prior 

      Office of Inspector General (OIG) report recommendations? 

   •	 What is the current status of the Escambia Treating Company Superfund site clean-up?
   •	 Is EPA communicating effectively with community residents, local businesses, and city
      and county governments regarding current EPA clean-up plans and actions?

Background
On September 30, 2004, the OIG issued a report on its review of the Escambia Treating
Company Superfund site in Pensacola, Florida (Review of Actions at Escambia Treating
Company Site, Pensacola, Florida, Report No. 2004-P-00032). The Escambia site is an
abandoned wood preserving facility where various health risks were identified and from which
about 358 households were permanently relocated.

We had reported that EPA Region 4 took appropriate clean-up planning actions at the Escambia
site. The Region had planned to clean up the site to address a contaminated soil mound and
contaminated groundwater. However, we could not evaluate the clean-up remedy, since the
Agency was still completing feasibility studies at the time of our review. We also reported that
the U.S. Army Corps of Engineers effectively implemented a very large and complex residential
relocation project at the site. The relocation removed residents from potential health risks and
re-situated them in replacement homes away from the site. We also noted that Region 4 made
efforts to inform the community and apprise them of activities at the Escambia site. We had
made several recommendations to Region 4 for further improvements in clean-up planning,
residential relocation, and community relations.

Scope and Methodology

We performed our field work from September through December 2007. As part of our work, we
interviewed EPA employees in Region 4’s Superfund Division, an official of the U.S. Army
Corps of Engineers, officials of Escambia County and the City of Pensacola, representatives of
the Clarinda Triangle Neighborhood Association and Citizens Against Toxic Exposure (CATE)
environmental group, and a representative of the local business community. We visited the
Escambia Treating Company site and attended the groundbreaking ceremony for the beginning
of the site’s clean-up on October 30, 2007. We visited the site repository at the West Florida
Regional Library in Pensacola, Florida, and reviewed the site administrative records, including
clean-up planning and community relations files.

We performed this review in accordance with generally accepted government auditing standards,
issued by the Comptroller General of the United States. We limited our review of internal
controls during this follow-up review to those specifically relating to the recommendations made
in our September 2004 report.



                                               1

                                                                                      08-P-0200 



Results of Review

Did EPA Region 4 implement the prior OIG report recommendations?

With the exception of one recommendation (Recommendation 4.3), Region 4 effectively
implemented our September 2004 report recommendations. We specifically found the following
regarding each prior recommendation.

   Recommendation 2.1: Include State, local government, and community comments and EPA
   responses in future Sampling and Analysis Plans.

   •	 Although we did not locate subsequent Sampling and Analysis Plans during our visit to
      the site repository, the Florida Department of Environmental Protection Project Manager
      for the Escambia site noted that Region 4 has been responsive to the State’s comments on
      EPA clean-up planning documents.

   Recommendation 3.1: More closely monitor the housing inspection process and implement
   the necessary steps to reduce the likelihood of maintenance issues surfacing after relocated
   residents move into replacement houses.

   •	 During the relocation of the Clarinda Triangle neighborhood, EPA and the U.S. Army
      Corps of Engineers monitored the housing inspection process and implemented steps to
      reduce the likelihood of maintenance issues surfacing. They accomplished this by EPA
      covering the costs of inspections of replacement homes for owner-occupants. In addition,
      the U.S. Army Corps of Engineers still conducts “walk-throughs” after inspections to
      ensure houses are decent, safe, and sanitary.

   Recommendation 3.2: Amend existing relocation policy to allow a period of time during
   which relocated residents can report maintenance issues on their replacement housing and
   seek reimbursement from the government for appropriate repair costs.

   •	 EPA planned to cover the costs of 1-year homeowner’s warranty policies for the Clarinda
      Triangle residents being relocated.

   Recommendation 4.1: Review the existing Community Involvement Plan for the site and
   revise and/or update the plan every 3 years, at a minimum, as required by the National
   Contingency Plan. Provide a copy of the updated plan to the site repository for community
   access.

   •	 Region 4 updated the Escambia site Community Involvement Plan as of April 2005 and
      provided a copy to the site repository. The Community Involvement Coordinator
      indicated that the Region expects to update the plan again during 2008.




                                               2

                                                                                  08-P-0200 



Recommendation 4.2: Continue to hold public meetings at important phases of site
remediation (e.g., major sampling events, demolition). The Region should plan to conduct a
public meeting within the next 3 months, since it has been more than a year since the last
meeting was held.

•	 On February 23, 2005, the Region conducted two public availability sessions regarding
   the Escambia site at the New Hope Missionary Baptist Church in Pensacola, Florida.
   Region 4 held subsequent availability sessions with the local community, including
   sessions in September 2005, November 2005, June 2006, August 2007, and September
   2007.

Recommendation 4.3: Provide a courtesy copy of administrative record documents added to
the site repository to the Citizens Against Toxic Exposure (CATE) community group through
printed copies, electronic files, or web site access.

•	 In its January 26, 2005, response to our prior report, Region 4 indicated it had sent an
   electronic copy of the site administrative record to the CATE community group on
   January 11, 2005. However, the current president of CATE said that her organization did
   not receive any electronic files, such as compact disks (CDs), from Region 4. In
   addition, the Region was unable to locate any evidence (e.g., copy of transmittal letter)
   that it had submitted the CDs to the CATE organization.

Recommendation 4.4: Provide a copy of the CDs containing the site administrative record
files, already available in the Region, to the site repository.

•	 In November 2004, the Region mailed the CDs containing the site administrative record
   files to the information repository.

Recommendation 4.5: Provide a copy of the community’s technical assistance grant
technical advisor’s comments to the site repository as required by EPA regulations.

•	 Region 4 submitted comments from CATE’s technical advisor to the information
   repository in January 2005.

Recommendation 4.6: Submit a response to the City of Pensacola, as promised, on the
resolution the City adopted in June 2002 on Escambia clean-up plans and in the future
follow through on responses to stakeholders when a promise to respond is made.

•	 EPA is remediating the site to Florida clean-up standards and the City officials we met
   with agree with the clean-up plan now. This eliminated the need for Region 4 to respond
   to the City’s initial resolution.




                                           3

                                                                                        08-P-0200 



What is the current status of the Escambia Treating Company Superfund site clean-up?

The remedial action for contaminated soils at the site (Operable Unit 1) began in October 2007.
The remedial action is expected to be completed around April 2009 and will involve:

   •	 permanently relocating the Clarinda Triangle neighborhood residents;
   •	 expanding and lining existing excavations above the water table;
   •	 placing all waste soil below grade and solidifying and stabilizing the principal threat
      material;
   •	 capping the waste compatible with planned commercial reuse;
   •	 conducting operations and maintenance and monitoring;
   •	 implementing institutional controls to restrict future land use; and
   •	 conducting 5-year reviews.

EPA completed the draft feasibility study for addressing contaminated groundwater (Operable
Unit 2) in October 2007 according to the Remedial Project Manager. The Agency expects to
issue the Record of Decision in July or August 2008 according to the Remedial Project Manager.

Is EPA communicating effectively with community residents, local businesses, and city and
county governments regarding current EPA clean-up plans and actions?

Overall, local community members, government, and businesses indicated Region 4 has openly
communicated and provided timely information regarding clean-up plans and actions on the
Escambia site. As mentioned above, the Region conducted several public availability sessions
with the community and also periodically distributed site fact sheets.


Recommendation
We recommend that the EPA Regional Administrator, Region 4:

   1.	 Provide copies of the CDs containing the site administrative record for the Escambia
       Treating Company Superfund site to the CATE environmental organization.


Agency Response and OIG Comments
In the response to the OIG draft report, the Regional Administrator indicated that Region 4
provided the CDs containing the administrative record to CATE on May 8, 2008. The OIG
concurs with the actions taken by Region 4 to address this recommendation.




                                                4

                                                                                            08-P-0200 



Suggestions
Although they did not warrant formal recommendations, we found several additional steps EPA
could take. Those issues and the accompanying suggestions are as follows.

   1.	 It has been 2 years since the site administrative record index at the information repository
       located at the West Florida Regional Library was last updated (March 7, 2006).

       Suggestion: Update the administrative record index at the information repository.

       Agency Response and OIG Comments: Region 4 indicated that another review and
       update of the administrative record index was scheduled for the week of June 9, 2008.
       The OIG concurs with the Region’s action to address this suggestion.


   2.	 The only fact sheets available at the information repository and cited in the administrative
       record file index were dated June 1996, December 1997, and August 2005.

       Suggestion: Provide copies of all fact sheets to the repository that are currently
       unavailable, and include them in an easily accessible, separate binder.

       Agency Response and OIG Comments: Region 4 indicated that a copy of all recent fact
       sheets had been placed in a binder at the information repository. Also, all fact sheets
       were saved on a CD and sent to the repository on May 7, 2008. The OIG concurs with
       the actions taken by Region 4 to address this suggestion.


   3.	 There are eight CDs that contain the administrative record at the information repository.
       However, three of the eight CDs were missing at the library (CDs 1, 7, and 8).

       Suggestion: Provide additional copies of the three missing CDs (CDs 1, 7, and 8) to the
       information repository.

       Agency Response and OIG Comments: Region 4 indicated that on February 13, 2008, it
       provided a complete set of five CDs containing all public records to date to the
       information repository. The OIG concurs with the actions taken by Region 4 to address
       this suggestion.


   4.	 CD 6 of the administrative record CDs available at the information repository contains
       the site inspection reports, but only includes reports through July 2000.

       Suggestion: Update CD 6 or provide another CD to the information repository that
       includes reports of site inspections conducted after July 2000.




                                                5

                                                                                      08-P-0200 





   Agency Response and OIG Comments: Region 4 indicated that on February 13, 2008,
   it provided a complete set of five CDs containing all public records to date to the
   information repository. The OIG concurs with the actions taken by the Region to address
   this suggestion.


5.	 Most visitors to the West Florida Regional Library would be unaware of the availability
    of the Escambia site administrative record CDs because there is no sign or notice that the
    CDs are available at the library.

   Suggestion: The Region should request that the library place a sign or some other type
   of notice to indicate the availability of the administrative record CDs through the
   reference librarian.

   Agency Response and OIG Comments: Region 4 indicated it had worked with the West
   Florida Regional Library and that signs were placed in the information repository areas to
   clearly identify the repository areas and the availability of documents and CDs. The OIG
   concurs with the actions taken by Region 4 to address this suggestion.


6.	 The administrative record CDs available at the information repository were not very easy
    to use. It was difficult to determine how some of the files were organized on the CDs and
    time-consuming to locate and retrieve specific documents.

   Suggestion: Make current and future administrative record CDs more user-friendly by
   including instructions on how to find documents on the CDs.

   Agency Response and OIG Comments: Region 4 addressed using the CDs in its May 8,
   2008, letter to the West Florida Regional Library that accompanied the administrative
   record CDs. The Region indicated that the CDs will automatically load Adobe Acrobat
   and users will be able to navigate to specific PDF documents with a web-like interface.
   The OIG concurs with the actions taken by Region 4 to address this suggestion.


7.	 Local government and business representatives have several concerns regarding:

   •	 windfall profits or windfall liens on cleaned up property at the site;
   •	 assumption of liability at the site and the possibility for liability relief; and
   •	 lengthy process for clearing and transferring title for property at the site and how this
      may delay redevelopment plans.

   Suggestion: Meet with city, county, and local businesses to discuss their concerns and
   consider solutions.




                                             6

                                                                                     08-P-0200 



   Agency Response and OIG Comments: Region 4 indicated it met with county and city
   officials many times during the last several years to discuss site redevelopment. Local
   officials were not completely satisfied with the protections provided through applicable
   portions of the bona fide prospective purchaser process. They prefer a blanket waiver of
   liability. The Region indicated it is working to address local officials’ concerns within
   the bona fide prospective purchaser process while also addressing its obligations to
   Florida through the State Superfund contract. Region 4 noted that potential solutions
   were discussed and believes the issues will be addressed during the remedial action. The
   OIG concurs with the actions taken by the Region to address this suggestion.


8.	 During a meeting with city and county officials in October 2007, several officials said
    they would like to stay informed of EPA activities at the Escambia site and would
    appreciate receiving summary information regarding Agency activities and progress at
    the site. They specifically requested copies of recent site fact sheets, which they would
    like to distribute to their staff who are involved with the Escambia site.

   Suggestion: Work with officials of the City of Pensacola and Escambia County to
   provide them with fact sheets on a regular basis.

   Agency Response and OIG Comments: Region 4 indicated it had added relevant city
   and county staff to the mailing list for the site. The Region noted that it informs the city
   and county when fact sheets are prepared for community meetings through the Technical
   Assistance Grant recipients – the Clarinda Triangle Association. Region 4 also noted that
   it established a public Website to present the most recent fact sheets, photographs of site
   work, and air monitoring data. The OIG concurs with the actions taken by Region 4 to
   address this suggestion.




                                             7

                                                                                                                                      08-P-0200



                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                   RECOMMENDATIONS                                                           BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                         Subject                       Status1           Action Official          Date      Amount      Amount

     1        4     Provide copies of the CDs containing the site           C        Regional Administrator,    05/08/08
                    administrative record for the Escambia Treating                        Region 4
                    Company Superfund site to the CATE
                    environmental organization.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                8

                                                                                       08-P-0200 




                  Agency Response to Draft Report

                                          June 5, 2008


MEMORANDUM

SUBJECT:	 Region 4 Response to the OIG Draft Public Liaison Report:
          Follow-up Review on Progress at Escambia Treating Company
          Superfund Site, Pensacola, Florida
          Assignment No. OCPL-FY07-0005

FROM:	         J. I. Palmer, Jr.
               Regional Administrator

TO:	           Paul D. McKechnie
               Director of Public Liaison
               Office of Congressional and Public Liaison


        The U.S. Environmental Protection Agency, Region 4 (the Region), is providing
responses to the one recommendation and eight suggestions identified in the April 30, 2008, draft
report from the Office of Inspector General (OIG) entitled, Follow-up Review on Progress at
Escambia Treating Company Superfund Site, Pensacola, Florida. We have carefully reviewed
the draft report and discussed the recommendations and suggestions provided in the report.
Based on our review, we believe the report is factually accurate and we generally concur with its
recommendations and suggestions. We have prepared the following specific responses:

Recommendation 1: Provide a courtesy copy of administrative record documents added to the
site respository to the Citizens Against Toxic Exposure (CATE) community group through
printed copies, electronic files, or web site access.

Region 4 Response: On May 8, 2008, the CDs containing the Administrative Record were sent
to the Citizens Against Toxic Exposure (CATE), the former Technical Assistance Grantee.
Please find this letter included as Attachment A.

Suggestions:

   1. 	 It has been 2 years since the site administrative record index at the information
        repository located at the West Florida Regional library was last updated (March 7,
        2006).

   Suggestion: Update the administrative record index at the information repository.




                                               9

                                                                                     08-P-0200 



Region 4 Response: The administrative record index at the information repository is
periodically reviewed and updated to provide new information and replace items that have
been lost or stolen. Another review and update is scheduled during the week of June 9, 2008.

2.	 The only fact sheets available at the information repository and cited in the
    administrative record file index were dated June 1996, December 1997, and August
    2005.

Suggestion: Provide copies of all fact sheets to the repository that are currently
unavailable, and include them in an easily accessible, separate binder.

Region 4 Response: A copy of all recent fact sheets has been placed in a binder at the
Information Repository for easy use and access. In addition, all of the fact sheets were saved
in Acrobat (.pdf) format on a CD and sent to the West Florida Regional Library on
May 7, 2008. Please find this letter included as Attachment B.

3.	 There are eight CDs that contain the administrative record at the information
    repository. However, three of the eight CDs were missing at the Library (CDs 1, 7,
    8)

Suggestion: Provide additional copies of the 3 missing CDS (CDs 1, 7, and 8)

Region 4 Response: Region 4 contacted the West Florida Regional Library and received the
information regarding the missing CDs. Region 4 found that the CDs contained information
from a combination of Escambia and other sites. On February 13, 2008, Region 4 sent a
complete set of 5 CDs containing all public records available to date. The West Florida
Regional Library responded in a February 22, 2008, letter. Please find these letters included
as Attachment C. In addition, please find a photograph included as Attachment D that
documents the CDs provided by the librarian to EPA staff on May 20, 2008.

4.	 CD #6 of the administrative record CDs available at the information repository
    contains the site inspection reports, but only includes reports through July 2008.

Suggestion: Update CD #6 or provide another CD to the information repository that
includes reports of site inspection conducted after July 2000.

Region 4 Response: Region 4 contacted the West Florida Regional Library and received the
information regarding the missing CDs. Region 4 found that the CDs contained information
from a combination of Escambia and other sites. Region 4 has addressed this suggestion by
sending a complete set of 5 CDs containing all public records available to date. Please refer
to Attachment C.

5.	 Most visitors to the West Florida Regional Library would be unaware of the
    availability of the Escambia site administrative record CDs because there is no sign
    or notice that the CDs are available at the library.




                                            10

                                                                                   08-P-0200 



Suggestion: The Region should request that the library place a sign or some other type of
notice to indicate the availability of the administrative record CDs through the reference
librarian.

Region 4 Response: Region 4 has worked with the West Florida Regional Library and signs
now have been placed in the information repository areas to clearly identify the site
repository areas and indicate the availability of documents and CDs.

6.	 The administrative record CDs available at the information repository were not
    very easy to use. It was difficult to determine how some of the files were organized
    on the CDs and time-consuming to locate and retrieve specific documents.

Suggestion: Make current and future administrative record CDs more user-friendly by
including instruction on how to find documents on the CDs.

Region 4 Response: Region 4 addressed the use of the CDs in the May 8, 2008, letter that
accompanied the complete set of the administrative record CDs. The CDs will automatically
load Adobe Acrobat and users may navigate to specific PDF documents in a more intuitive
web-like interface.

7.	 Local government and business representatives have several concerns regarding:
       a.	 windfall profits or windfall liens on cleaned up property at the site;
       b.	 assumption of liability at the site and the possibility for liability relief; and
       c.	 lengthy process for clearing and transferring title for property at the site and
           how this may delay redevelopment plans.

Suggestion: Meet with the city, county, and local businesses to discuss their concerns and
consider solutions.

Region 4 Response: Region 4 has met with county and city officials numerous times over
the past several years to discuss redevelopment of the site. The referenced issues have been
identified, and Region 4 has hosted three separate teleconferences involving environmental
attorneys from regional, state, and local governments. Local government officials were not
completely satisfied with the protections provided through applicable portions of the bona
fide prospective purchaser process, and would prefer a blanket waiver of liability. Region 4
is working to address their concerns within the bona fide prospective purchaser process while
also addressing our obligations to the State of Florida through the State Superfund Contract.
A range of solutions have been discussed, and the Region is confident these issues will be
fully addressed during the Remedial Action.

8.	 During a meeting with city and county officials in October 2007, several officials
    said they would like to stay informed of EPA activities at the Escambia site and
    would appreciate receiving summary information regarding Agency activities and
    progress at the site. They specifically requested copies of the recent site fact sheets,
    which they would like to distribute to their staff who are involved with the Escambia
    site.



                                           11

                                                                                       08-P-0200 





Suggestion: Work with officials of the City of Pensacola and Escambia County to provide
them with fact sheets on a regular basis.

Region 4 Response: Region 4 has added the city and county staff involved with the activities
at the Escambia site to the mailing list for the Site. In addition, the city and county staff are
informed when fact sheets are prepared for community meetings through the Technical
Assistance Grant recipients, Clarinda Triangle Association. Region 4 has also established a
public website, www.etccleanup.org, which presents the most recent fact sheets, photographs
of site work, and air monitoring data. The City of Pensacola has recently had significant
turnover in its environmental staff, and Escambia County has been designated as EPA’s
contact for local government.

    In summary, the information contained in this memorandum and in the attached exhibits
constitutes the Region’s initial response to the OIG report. Suggestions 1, 7, and 8 are
ongoing items that are part of the Region’s communication strategy with the community and
the updated 2005 Community Involvement Plan. As noted during the debriefing from this
follow-up review, the Region’s renewed efforts towards community involvement over the
past several years have produced a tremendous increase in community support for the
cleanup of the Escambia Wood Treating Company Superfund Site. EPA Region 4 will
continue these efforts throughout the remaining cleanup of this Site.

   Thank you for the opportunity to respond to the recommendations and suggestions
contained in this report. If you have any questions regarding these responses, please contact
Franklin Hill, Director of the Superfund Division, at (404) 562-8583.

Attachments

cc: Terry Dempsey, Audit Liaison, Region 4
    Carol Monell, Branch Chief, Superfund Remedial Branch
    David Keefer, Section Chief, Superfund Remedial Branch
    Erik Spalvins, Remedial Project Manager
    L’Tonya Spencer, Community Involvement Coordinator




                                             12

                                                                              08-P-0200 




                                     Distribution

Office of the Administrator 

Regional Administrator, Region 4 

Agency Follow-up Official (the CFO) 

Agency Follow-up Coordinator 

Office of General Counsel 

Director, Superfund Division, Region 4 

Branch Chief, Superfund Remedial Branch, Superfund Division, Region 4 

Section Chief, Superfund Remedial Branch, Superfund Division, Region 4 

Associate Administrator for Congressional and Intergovernmental Relations 

Associate Administrator for Public Affairs 

Audit Follow-up Coordinator, Region 4 

Deputy Inspector General 





                                              13

